HHS/OIG, Audit -"Medical Review of Green Crosss Partial Hospitalization Services
for the Period August 1, 2000, Through December 31, 2002,"(A-04-04-02003)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Medical Review of Green Crosss Partial Hospitalization Services for the Period August
1, 2000, Through December 31, 2002," (A-04-04-02003)
April 5, 2006
Complete
Text of Report is available in PDF format (2.87 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether the claims that Green Cross, Inc. submitted for partial
hospitalization program (PHP) services met Medicare reimbursement requirements.  Green
Cross submitted claims for PHP services that did not meet Medicare reimbursement requirements.  Medical
reviewers determined that 95 of the 100 sampled PHP claims did not meet Medicare reimbursement
requirements relating to initial certification/evaluation, recertification, and/or beneficiary
eligibility.  We recommended that CMS determine the allowability of the claims that
resulted in our $4,762,036 statistical estimate of unallowable payments.  In its comments
on our draft report, Green Cross strongly disagreed with the findings and took issue with
many aspects of the review, including the audit process and the medical determinations.